LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

January 20, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE: NO. 19-1257:
RE: NO. 19-1258:

MARK BRNOVICH, ATTORNEY GENERAL OF ARIZONA, ET AL. V. DEMOCRATIC NATIONAL
COMMITTEE, ET AL.
ARIZONA REPUBLICAN PARTY, ET AL. V. DEMOCRATIC NATIONAL COMMITTEE, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Campaign Legal Center as Amicus Curiae, on
January 20, 2021 I caused service to be made pursuant to Rule 29 on the following counsel for the Petitioners
and Respondents:
PETITIONERS ARIZONA
REPUBLICAN PARTY, et al.:
Michael A. Carvin
Jones Day
51 Louisiana Ave., N.W.
Washington, DC 20001
202-879-7643
macarvin@jonesday.com
PETITIONERS MARK
BRNOVICH, et al.:
Joseph Andrew Kanefield
Arizona Attorney General's Office
2005 N. Central Ave
Phoenix, AZ 85004
602-542-8017
allyson.flanagan@azag.gov

PETITIONER UNITED
STATES:
Jeffrey B. Wall
Acting Solicitor General
United States Department of
Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

RESPONDENTS
DEMOCRATIC NATIONAL
COMMITTEE, et al.:
Marc Erik Elias
Perkins Coie, LLP
700 13th St, NW
Ste. 800
Washington, DC 20005-3960
202-434-1609
melias@perkinscoie.com

RESPONDENT KATIE
HOBBS, ARIZONA
SECRETARY OF STATE:
Jessica Ring Amunson
Jenner & Block LLP
1099 New York Avenue NW
Suite 900
Washington, DC 20001
202-639-6023
JAmunson@jenner.com

This service was effected by depositing three copies of the Brief of the Campaign Legal Center as Amicus
Curiae in Support of Respondents in an official "first class mail" receptacle of the United States Post Office
as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 20th day of January 2021.

